I

J

1
STATE OF OHIO

)

IN THE COURT OF APPEALS

COUNTY OF TRUMBULL

)SS.
)

ELEVENTH DISTRICT

ANN KARNOFEL,
Plaintiff-Appellant,

I

JUDGMENT ENTRY
CASE NO. 2018-T-0055

- vs SUPERIOR WATERPROOFING, INC.
Defendant-Appellee.
Appellant, Ann Karnofel, has filed yet another motion for reconsideration
asking this court to reconsider its October 29, 2019 judgment entry, which
adopted the September 18, 2019 Magistrate’s Decision overruling all other
pending motions and awarding judgment to appellee, Superior Waterproofing,
Inc., in the sum of $2,722.50, as and for sanctions for a frivolous appeal.
As grounds for her motion, Ms. Karnofel claims the entry “made some
obvious errors and did not consider some issues fully or did not consider them at
all.”

Ms. Karnofefs motion then proceeds to once again rehash all of her

arguments raised in her appeals, prior motions, and objections.
Thus, we find that Ms. Kamofel’s motion is frivolous and obviously serves
only to harass Superior and cause it to incur further expense.
Ms. Karnofel’s latest motion for reconsideration raises nothing new.
Further, she did not demonstrate any obvious error or omission which would
necessitate reconsidering this court’s opinion or its judgment upon the
Magistrate’s Decision. She has failed to identify any relevant fact or any relevant

iI

i
I

i
* • *!•-

i

law we did not consider; therefore, Ms. Karnofel’s motion for reconsideration is
)

I

denied.

;

f

nhJUL
JUDGEIMARY JANE
THOMAS R. WRIGHT, P.J.,
TIMOTHY P. CANNON, J„

concur.

FILED
COURT OF APPEALS

DEC 1 3 2019
TRUMBULL COUNTY, OH
KAREN INFANTE ALLEN, CLERK

Il
i

I

!

!
I

STATE OF OHIO

IN THE COURT OF APPEALS

)
)SS.
)

COUNTY OF TRUMBULL

ELEVENTH DISTRICT

JUDGMENT ENTRY

ANN KARNOFEL,
Plaintiff-Appellant,

CASE NO. 2018-T-0055
- vs SUPERIOR WATERPROOFING, INC.,
Defendant-Appellee.

This matter came on for consideration upon the Magistrate’s Decision of
September 18, 2019, and objections filed by appellant, Ann Karnofel.
Under Civ.R.

53(D)(3)(b)(1), a party may file written

objections to a

magistrate's decision within 14 days of the filing of the decision, whether or not the
court

has

adopted

53(D)(3)(b)(iii) describes

the

decision

certain

during

that

requirements to

14-day
support an

period.
objection

Civ.R.
to

a

magistrate's factual findings, stating in pertinent part:
“An objection to a factual finding, whether or not specifically designated as a
finding of fact under Civ.R. 53(D)(3)(a)(ii), shall be supported by a transcript of all the
evidence submitted to the magistrate relevant to that finding or an affidavit of that
evidence if a transcript is not available. * * * The objecting party shall file the
transcript or affidavit with the court within thirty days after filing objections unless the
court extends the time in writing for preparation of the transcript or other good cause.
If a party files timely objections prior to the date on which a transcript is prepared, the
party may seek leave of court to supplement the objections."

i

Ms. Karnofel's objections were timely filed on September 27, 2019. Appellee,
Superior Waterproofing, Inc., did not file a response to Ms. Karnofel's objections, and
Ms. Karnofel has not filed a transcript of the proceedings before the magistrate or an
affidavit.
The court has undertaken an independent review of the Magistrate's Decision
as to the objected matters, and the findings of fact contained within the Magistrate's
Decision are approved and incorporated by reference within this judgment entry.
Ms. Karnofel's first, third, and fourth objections relating to the court’s denial of
her motion to stay, the court's denial of her motion to continue the evidentiary hearing
before the magistrate, and her objection to the court's judgment entry ordering appellee
to show cause are overruled as those judgment entries are not a part of the
Magistrate's Decision. Thus, they are not properly the subject of objections to that
decision.

The court would note that we also overruled appellee’s motion for a

continuance of the evidentiary hearing.
Ms. Karnofel’s second and eighth objections are overruled for the same reason.
Ms. Karnofel is attempting to .relitigate this court’s opinion and judgment entry on the
merits of her appeal. The only matter referred to the magistrate was the issue of the
reasonable amount of appellee's attorney fees and expenses incurred in defense of
the underlying appeal. The only frivolous conduct found by this court in the underlying
appeal was that of Ms. Karnofel.
Ms. Karnofel’s fifth objection regarding Attorney Gold's hourly rate is also
overruled. The court has accepted the magistrate’s finding that $275 per hour is
reasonable.

No transcript from the evidentiary hearing was filed; thus, without a

2

transcript, our review of the magistrate's findings of fact is limited to determining
whether those findings support the magistrate’s conclusions of law. Krlich v. Shelton,
11th Dist. Trumbull No. 2018-T-0104, 2019-Ohio-3441, iT23.
Further, Ms. Karnofel argues the hourly rate should not exceed $125 pursuant
to the "Equal Access to Justice Act," citing an article in American Jurisprudence 2d.
The act found at Title 28 U.S.C., Chapter 161, Section 2412, applies only in cases
where the United State of America or any of its agencies or officials are parties.
Ms. Karnofel's sixth and seventh objections are overruled because, again, the
court has accepted the magistrate’s findings regarding the testimony of Attorney Grove
as to Attorney Gold’s professional qualifications, the reasonableness of fees as
contemplated in Prof.Cond.R. 1.5(A)(1) through (8), and the hours spent.

Again,

without a transcript of the evidentiary hearing our review is limited. Ms. Karnofel’s
inability to pay any money judgment is not a valid basis for an objection to the
Magistrate's Decision.
Therefore, this court adopts the Magistrate's Decision overruling all other
pending motions and awarding appellee, Superior Waterproofing, Inc., the sum of
$2,722.50, for which judgment is hereby rendered and execution may issue. Costs
are assessed to appellant.

a Ia/LXJ w-yy-rc'o
jjupg'E Mary jane i?|app
FILED
COURT OF APPEALS

THOMAS R. WRIGHT, P.J.
MATT LYNCH, J.,

OCT 2 9 2019

concur.
3

TRUMBULL COUNTY, OH
KAREN INFANTE ALLEN, CLERK

IN THE COURT OF COMMON PLEAS
- GENERAL DIVISION TRUMBULL COUNTY, OHIO
ANN KARNOFEL

CASE NUMBER: 2015 CV 01162

PLAINTIFF
VS.

JUDGE W WYATT MCKAY

SUPERIOR WATERPROOFING INC
DEFENDANT

JUDGMENT ENTRY

Plaintiff's Motion for Relief from Judgment is hereby denied.

JUDGE W WYATT MCKAY

Date:

rso

cpr?

CD

3:
-

r?o

cn

-lr,>

£~rn£?
I—

op 2;

OtiP'

V?

£ >

-cUD

vJunt? 20^
This is a true and correct copy of the

A??ETi£rtX J3
h.

original__

JJaI

KARBNINFANTE ALLEN
Clerk of Courts

pfi n 'ir

tEfye Supreme Court of ©Ijio f !! IU i&

APR 1U 2821)

CLERK OF COURT
SUPREME COURT OF OHIO

i
i$

Ann Kamofel

Case No. 2020-0130
ENTRY

v.

Superior Waterproofing, Inc.

Upon consideration of the jurisdictional memoranda filed in this case, the court
declines to accept jurisdiction of the appeal pursuant to S.Ct.Prac.R. 7.08(B)(4).
(Trumbull County Court of Appeals; No. 2018-T-0055)

juuAJL*
Maureen O’Connor
Chief Justice

A??EMC)IY.

£_

jp
pi
tfa H !:
5

'Qllrfe Supreme ffitmri of (Dtpo

Ann Kamofel

JUL -7 2020

Case No. 2020-0130

I

v.

pfj

i.-^'S

RECONSIDERATION ENTRY

Superior Waterproofing, Inc.

i

Trumbull County

It is ordered by the court that the motion for reconsideration in this case is denied.

(Trumbull County Court of Appeals; No. 2018-T-0055)

Maureen O’Connor
Chief Justice

\

o r^v-

"S CAt^V^On'
-C\V^xL

r~-.. OCZi 0.0

'"-y rs

<vJ \->
\

s j

♦

GO

c^vIca/vca^.

oxo^,

^X.\3CACyj

Q

m/ -m/ o o. o o
/

v
^^0£> ,

\/J CyVC'ft|K

:.
Q2P

I, Up?- °°
Oo
(

C/VAt'Ov. ^W>d% dtkA**±

•O'O

f-ftSOD.oC
/
000.00
'•

i

.CJ 5*G>^' <^=>
(^^r^cA-V
JoOO.
^

^ ~ 3° ~ O

aSO

l

Sut-frinr Jjj^f(y0rfiiOh.'Jor,
(Wrd hr)uniu^/ £
^

Wat

ti r Oct «r<^

&(>M C-l/P
B~0;
(y

\/,

.hof/sr^r

ibbS*

AfPmbix e

:•> -

*

fiiim

A,

GIRARD MUNICIPAL COURT
TRUMBULL COUNTY, OHIO

DEC 11 20p,
lmv

mm/

Superior Waterproofing, Inc.
9680 Cain Drive, N.E.
Warren, OH 44484
Plaintiff
v.
Delores M. Karnofel
1528 Greenwood Avenue
Girard, Ohio 44420
Defendant

)
)
)
)
)
)
)
)
)
)
)
)
)

Case No.

A o/y £i/f o/oCif

Judge Jeff Adler

COMPLAINT ON ACCOUNT

Plaintiff for its Complaint says as follows:
1. Plaintiff is in the business of waterproofing predominately residences.
2. Plaintiff was retained by Defendant to perform waterproofing services on her home at
the address indicated above in 2012. A copy of the agreement is attached as Exhibit A.
3. The total consideration to be paid to Plaintiff was $9,500.00.
4. Plaintiff performed the services as required pursuant to the contract, but Defendant has
refused to pay full consideration and still owes $6,000.00 to Plaintiff on an account. A copy of
the account is attached as Exhibit B.

Respectfully submitted,

\.jLr£> c.
Ned C. Gold, Jr., Esq. (0018306)
Ford, Gold, Kovoor & Simon, Ltd.
8872 E. Market Street
Warren, OH 44484

Phone: 330.856.6888 Fax: 330.856.7550
Email: gold@neo-lawgroup.com

r

/

:x
Instructions for Service
Please serve a copy of the foregoing Complaint with summons on Defendant at the address
shown above by certified mail.

^
Ned C. Gold, Jr., Esq. (0018306)

fj/

\r

Page No.

.

EXHIBIT

of

Pages

i—

/

SUPERIOR WATERPROOFING, INC.

R

3 3o- S03-317

P.O. Box 542
WARREN, OHIO 44482
(330) 856-9133

proposal submitted to

STREET

k

Clort-b

(XCAO

41

PHONE

S'LfS'-^3o3 \

CITY. STATE and ZIP CODE

^

JOB NAME

G VCCf~NUJoorC
-------- '---------------------------->~^=-

JOB LOCATION

G(GeriZ. . o H- MM4Q-O
ARCHITECT

DATE OF PLANS
JOB PHONE

We hereby submit specifications and estimates for:

.B . (X. IS SsT..W.d£...MxQ,,g.c r\.q

I <5 -3 -ftre4- of

oA \ %

^........ c&g...................................
.bcx NQsV^Ve^........... c£cmks.L^iikc^
. Lil\ bc..^ec4.ec£.
U(i_ lo l 11 b^cJ<fI.j\.. . WG
..k?.(^fe(b..£...cx^.A
.0.1 i\.bo pWjeJ?
,Q2\ tjjL.. Frooi:.uiU
be.W^<ecN cfoo.es..............
30*
T’*"

r^c-W -Hs&.Q't..|)^£c_G.O^ (\
... be. b1- lAV CA S'S V tV>, o
3
^'ecV-N G °cl*k °-rN<j2- f> Wl’
4o

«.

tn

X

ZH'

17

fflp Propose

..NV~^cn................ fsgjjj

°9

o OtPvcCcV’C,

.SOCXqG,.... 1 5~ fee?.V Q) ~PcctV~

hereby to furnish material and labor — complete in accordance with above specifications, for the sum of:
dollars ($

Payment to be made as follows:

All material is guaranteed to be as specified. All work lo be completed in a workmanlike
manner according to standard practices. Any alteration or deviation from above specifications
involving extra costs will be executed only upon written orders, and will become an extra
charge over and above the estimate. Afl .agreements contingenl upon strikes, accidents
or delays beyond our control. Owner to carry fire, tornado and other necessary insurance.
Our workers are fully covered by Workman's Compensation Insurance.

7

Authorized
Signature _

oo. oo

/

Note: This proposal may be
withdrawn by us if not accepted within

days.

/■

Acceptance of Proposal

— The above prices, specifications
and conditions are satisfactory and are hereby accepted. You are authorized
to do the work as specified. Payment will be made as outlined above.

Smnature

Date of Acceptance:

Signature

U

/fe '(kftsu^O-^siJL
/
//

V'

»t

■

"SGrperior Waterproofing, Inc.
. 4*

EXHIBIT B
INVOICE: #229

9680 Cain Dr.

DATE: 10/3/2014

Warren Ohio 44484
330.883.3372

TO:
Ms. Delores Karnofel
1528 Greenwood Avenue
Girard, Ohio 44420
330.545.6303

FOR: WATER PROOFING BASEMENT WALLS
AND REPLACE FRONT PORCH

DESCRIPTION

HOURS

RATE

AMOUNT

Original Bid - Basement and
Bid is for hand digging 103' of basement walls. Will dig
down to the footer and replace old footer pipe. New PVC
pipe will be installed. All cracks will be repaired. Walls will
be sealed with tar.Will backfill with wash gravel. Topsoil
will be placed on top.
Front Porch
Front porch will be taken down. A new front porch will be
built consisting of binch block and filling to grade. Pour new
concrete pad -15' x 6'

$9,500.00

Additional Work Requested
Install new downspouts to street

$1,600.00

Additional waterproofing on back wall

$1,200.00

1- French Drain replaced with solid PVC pipe

$200.00

Total

$12,500.00

Amount Paid to Date

-$6,000.00

BALANCE DUE

$6,500.00

I-/

BLED

IN THE GIRARD MUNICIPAL COURT
TRUMBULL COUNTY, OHIO
Superior Waterproofing
Plaidtiff
v.

Case No. 2014 CVF 1065

)
)
)

HON. JEFFREY D. ADLER

)
)
)
)
)

Delores M. Karnoftl
Defendant

Girard w
Counicipal

)

JUDGMENT ENTRY

This matter comes before the Court upon the Plaintiffs Motion for Summaiy
Judgment. The standard of review for summary judgment motions is well settled

in Ohio.

In Dresher v. Burt (1996) 75 Ohio SOd 280, the Ohio Supreme Court stated:
Under Rule 56(c) summary judgment is proper ‘if the pleadings, depositions answers to
is no
judgment, adder adequate time for discove^and uprn^orionya^insTa^party^who^faii^to^iake a
showtng sufficient to publish the existence of an element essential to that party's cal Id™
which that party wtll hear the burden of proof at trial, h, such a situation, thelL be ‘no
genuine issue as to any material fact, since a complete failure of proof concerning an essential
element ctf the nonmoytng party's case necessarily renders all other facts immaterial The moving
party is entitled to a judgment as a matter of law’ because the nonmoving party has failed to 8
Irfen offroof ‘
™8 °” “
eleme“ °f 1ber CaSe with resl»« to which she has the
!

This case arose out of the complaint of the Plaintiff alleging that Plaintiff was retained by
the Defendant to perform waterproofing services at her residence located at 1528 Greenwood
Avenue Girard, Ohio. The Defendant admits the existence of a contractual relationship with the
Plaintiff m her answer.; The total consideration to be paid to the Plaintiff for services rendered
was $9,500.00. The Defendant requested additional work to be performed at an additional
of $3,000.00 bringing the total price for services rendered to $12,500.00.
:

A?

biY

Cd

Attached to the

cost

complaint of the Plaintiff and i ts motion for summary judgment are copies of the original
contract and change order. The Defendant paid the Plaintiff a total of $6,000.00 leaving a)
balance of $6,500.00. However, the Plaintiff only requests a judgment of $5,000.00 in his
affidavit supporting his motion for summary judgment. The Court has reviewed all of the
pleadings, briefs, and exhibits in favor of, and in response to the motion for summary judgment.
The Defendant’s argument and the exhibits attached to her response to the Plaintiffs motion for
summary judgment do not show that there are any genuine issues for trial. Likewise, the
Plaintiffs motion for summary judgment also shows that there is no genuine issue as to any
material fact and that the Plaintiff is entitled to summary judgment as a matter of law.
Judgment is hereby granted in favor of the Plaintiff and against the Defendant in the
j

amount of $5,000.00 with i nterest at the rate of 3% per annum from the date ofjudgment and
costs. This is a final appealable order. There is no just cause for delay.

Date (| XDj
cc: Plaintiffs Counsel
Defendant
i

!

i

IN THE COURT OF COMMON PLEAS
- GFNERAL DIVISION TRUMBULL COUNTY, OHIO

!

!
;

!

! i!

CASE NUMBER: 2015 CV 01162
ANN KARNOFEL
PLAINTIFF

VS.

JUDGE W WYATT MCKAY

SUPERIOR WATERPROOFING INC
DEFENDANT

JUDGMENT ENTRY

This matter is before the Court on the Defendant's Motion for Summan/
Judgment. The Court has reviewed the motion, any response, the evidence and the
applicable law.
This matter arises out of a dispute between Plaintiff Ann Karnofel and Defendant
Superior Waterproofing Inc., a contractor. Ann alleges that she entered into a contract
with Defendant whereby Defendant was to perform waterproofing services and was
also to install a new porch on her residence at 1528 Greenwood Ave. Girard, Ohio
44420, but that the services were either not performed or were performed negligently.
Although Ann resides in the residence, the home is actually owned by her daughters,
Deiores Karnofel and Donna Jean Beck. Delores also lives in the residence with Ann.
The Contract which was signed on June 27, 2013, contains the name of Delores
Karnofel under the heading entitled "Proposal Submitted To" but the "Acceptance of
Proposal" was actually signed by Ann Karnofel.
Defendant alleges that this case is barred by res judicata because the matter has
already been adjudicated by the Girard Municipal Court in Case No. 2014 CV 1065. In
that case, Defendant brought suit against Delores Karnofel for breach of contract.

APPE-NUbC
!i

N

i

!

11 Defendant now essentially claims that any claims of Ann would have had to been
i

brought in that action as a compulsory counterclaim, as Ann is in privity with Delores.

Civil Rule 13 (A), which governs compulsory counterclaims, provides: "A pleading!

I!

11 shall state as a counterclaim any claim which at the time of serving the pleading the
pleader has against any opposing party, if it arises out of the transaction or occurrence
that is the subject matter of the opposing party's claim and does not require for its
\

adjudication the presence of third parties of whom the court cannot acquire
jurisdiction." This rule has been interpreted as requiring a defendant to raise any issues
arising out of the same transaction in the original suit or have the claim barred by the
doctrine of res judicata. Rettig Ent. Inc. v. Koehler, 68 Ohio St.3d 274, 626 N.E.2d 99

(1994).
' According to the Complaint in the Girard Municipal Court action, Superior alleged
a breach of the June 27, 2013 construction contract by Delores Karnofel. (The Court
notes that it is permitted to take judicial notice of the complaint contained in
Defendant's answer and counterclaim since the complaint was incorporated into the
pleadings. See Hammerschmidt v. Wyant Woods Care Center {Dec. 27, 2000), Summit
App. No. 19779, 2000 WL 1875401 citing U.S. v. Wood, (C.A.7, 1991), 925 F.2d 1580,
1582.)

Therefore, any claim of Delores Karnofel for her own allegations of a breach of

that contract would be a compulsory counterclaim in that matter, and her claims in this
matter are barred by res judicata.
This does not end our analysis, however. The Court must determine whether the
failure to present all claims in the first lawsuit precludes Ann Karnofel from asserting

i
i
i
!
i

!

these claims in the present lawsuit. In order to invoke res judicata, one of the

2

I

H
H requirements is that the parties to the subsequent action must be identical to or in
11 privity with those in the former action. Johnson's Island, Inc. v. Danbury Twp. Bd. of

n

i!

I!i

Trustees, 69 Ohio St.2d 241, 243, 431 N.E.2d 672, (1982). The Ohio Supreme Court

!

!
:

has previously stated that "[wjhat constitutes privity in the context of res judicata is
somewhat amorphous." Brown v. Dayton, 89 Ohio St.3d 245, 248, 730 N.E.2d 958,

I

!
\
!

(2000). The Supreme Court has further applied a broad definition to determine
whether the relationship between the parties is close enough to invoke the doctrine. Id.
"A mutuality of interest, including an identity of desired result," may create privity. Id.

!

The Court notes that Delores Karnofel was declared a vexatious litigator by the

1

Court of Common Pleas and cannot bring any actions on her own without leave of
Court. The names of both Delores and Ann appear on the relevant contract. They both
i

reside in the house that is the subject of the contract. Therefore, the Court finds that
although the Girard suit named Delores as a Defendant and this suit was brought by
Ann as Plaintiff, there is sufficient mutuality of interest, including an identityypf desired
cr,d.

sj

we,

-?c>

result so that Delores and Ann are in privity for purposes of res judical
--^cy

3CC

TwTT
■—1

x

Defendant's Motion for Summary Judgment is hereby GRANTEK?CGaselj
CT C~)

-O

<p c:-

concluded. Costs to Plaintiff. This is a final appealable order and theref&po jast cause'
cn .<

for delay.

JUDGE W WYATT MCKAY
Date:

3/?(r7
TO THE CLERK OF COURTS:
YOU ARE ORDERED TO SERVE COPIES OF THIS JUDGMENT
ON ALL COUNSEL OF RECORD OR UPON THE PARTIES
WHO ARE UNREPRESENTED FORTHWITH
BY ORDINARY MAIL.

JUDGE W. WYATT McKAY

3

I
; I!

pO

!
!
j

I

Proposal

.if

Page No.

SUPERiOR WATERPROOFING, INC.
P.O. Box 542
WARREN, OHIO 44482
(330) 856-9133

41

of

Pages
%

F*'

3 3d- 5^3-317j

PHONE

\ D3'^LCo-/
JOB NAME

^U<=L
ARCHITECT

JOB LOCATION

G(rgcci2^ roH~
DATE OF PLANS

JOB PHONE
Wehereby submit specifications and estimates for:

....

, I
..Vc

'VN<Xi^ 433'AC1 cl0~^................. LJ>«Ah.
^'3..c^oW>^ Z\4Aoo4Q^.lasWaL P0 4oW f.pe
..Si\.efcud-AS..Co'.WUc VcVWcIc..............b.^...^..c..cAec£..........oj>Vbx.tovs:,.. L)e^.uaII|\
.Ul\.be, p\ao^g ,Q2>. 4p..^..n...Fr 0/^4-..;^rcFv...Uii\
b.C..J(xW.c\.cSoLor^.
30

r>.«AJ.z.l5?,oF...Tio^U, Will

.. b^k’zbi

o4~

CprsS'S

3
Fib )'O0 4.0

. .^''04^...^

^r^CrPL^.,........................ QCJbu C oocCcV

24

.jpcxfiCL
v

!. Sicci . . v &

..

w
I39e Propose hereby to furnish material and labor —

mplete in accordance with above specifications, for the sum of:
dollars ($

Payment to be made as follows:

All material is guaranteed to be as specified. All work to be completed in a workmanlike
manner according to standard practices. Any alteration or deviation from above specifications
involving extra costs will be executed only upon written orders, and wilt become an extra
charge over and above the estimate. All agreements contingent upon strikes, accidents
or delays beyond our control. Owner to carry fire, tornado and other necessary insurance.
Our workers are fully covered by Workman's Compensation insurance.

£

Acceptance of proposal

— The above prices, specifications
and conditions are satisfactory and are hereby accepted. You are authorized
to do the work as specified. Payment will be made as outlined above.
Date of Acceptance:

Authorized
Signature _

5S OO. oo

20X__

Note: This proposal may be
withdrawn by us if not accepted within

1
Js'nnature

(f/Msvu

A?PO)ft/x JL_
Signature

days.

/3
)
.s

)
) SS.
)

STATE OF OHIO
COUNTY OF TRUMBULL

IN THE COURT OF APPEALS
ELEVENTH DISTRICT

MAGISTRATE'S ORDER

ANN KARNOFEL,
Plaintiff-Appellant

CASE NO. 2018-T-0055
- vs SUPERIOR WATERPROOFING,
INC.,
Defendant-Appeiiee.

On April 15, 2019, this court determined that appellee was entitled to
reasonable expenses, including attorney fees and costs, related to the instant
appeal pursuant to App.R. 23.
Counsel for appellee shall have fifteen (15) days from the date of this order

i

to file evidentiary material, including affidavits and/or other documentary materials,
demonstrating reasonable expenses, costs, and attorney fees, particularly
;■

addressing the factors set forth in Rule 1.5 of the Ohio Rules of Professional
Conduct. Counsel for appellee shall also identify any expert witness, who will be
called at the evidentiary hearing to corroborate the claim for attorney fees. Once
filed, appellant shall file a response no iater than seven (7) days thereafter.
The matter is set for an evidentiary hearing on Wednesday, June 19, 2019,
at 9:30 a.m., at the Eleventh District Court of Appeals, 111 High Street, N.E.,

i

I
Warren, Ohio 44481. It is mandatory that you appear fifteen (15) minutes prior to
I
i
!
i

the scheduled hearing time.
FILED
COURT OF APPEALS

MAY 1 6 2019.
TRUMBULL COUNTY, OH
KAREN INFANTE ALLEN, CLERK

MAGISTRATE SHIBANI SHETH-MASSACCI
i

APPElOiMY

Ej

I
s
)

IN THE COURT OF APPEALS
ELEVENTH APPELLATE DISTRICT
TRUMBULL COUNTY, OHIO
ANNKARNOFEL,
PLAINTIFF-APPELLANT,
vs.

)
)
)
)
)
)

CASE NO. 2018-TR-00055

FILED
COURT OF APPEALS
/

SUPERIOR WATERPROOFING, INC., )
DEFENDANT-APPELLEE.

JUN 2 0,2019..

)
)
)

TRUMBULL COUNTY, OH
. KAREN INFANTE ALLEN, CLERK

APPELLEE’S RESPONSE TO
COURT’S JUNE 13.2019 ENTRY RE: ATTORNEY FEES
INTRODUCTION
In its Junel3, 2019 Judgment Entry, the Court directed Appellee to show cause [within
seven days from June 13, 2019] as to why this Court should not determine that he is not entitled
to any monetary expenses, including attorney fees and costs, related to the instant appeal pursuant
to App. R. 23.
This response addresses that directive and then presents evidence of the fees and costs
incurred in defending the appeal.
First, Appellee apologizes to this Court, and specifically to Magistrate Judge ShethMassacci for not responding timely to her May 16th Order.
By way of exclamation, and not excuse, allow me to advise why I did not respond timely.
Just a few days after I received the May 16th order, receipt being May 20th, I left the office for a
4500-mile driving trip to the west and back. I was gone for a period of a little over two weeks and
did not return to the office ur/til June 11th.
In addition, a few months ago, I made a decision to begin winding down my 53-year
practice. (I am nearly 78 years old and it is time to “smell the roses” - as directed (make that
ordered) by my wife and children). I advised my partner, Sarah Kovoor, of my plans. We set a

A?Fr£M51NC

KL

1

ORIGINAL

target date of May 31st. However, we had not completed a severance agreement by that date.
Nevertheless, while on vacation I learned that Attorney Kovoor had abruptly - without any
announcement, discussion or warning - left our offices on E. Market St. in Howland over the last
weekend in May and moved to a new office - much to my and our staff s surprise and chagrin.
Because I was in a western location where cell service is sparse, I did not find out until a few days
later. I was taken aback; others affiliated with the firm (employees and those attorneys who are “of
counsel”) were taken aback as well. It was unclear to all of us what Sarah’s intentions were, but,
regardless, it threw our small firm into turmoil. And so when I returned, there were a lot of
unexpected issues on my plate, and I flat-out forgot about Magistrate Sheth-Massacci’s order until
she contacted me. But before I had a chance to prepare a request for a continuance related to the
matters in her May 16th order, I received the Court’s June 13th show cause entry,
Accordingly, I respond to that entry.
/

RESPONSE
I do not have to remind the court of the saga that Appellant, Ami Kamofel, and her daughter
Delores, have put Appellee, Superior Waterproofing, Inc., and undersigned counsel through over
a four-year period as related to a contract entered between the parties for waterproofing at the
Kamofel home in Girard. It has been onerous to say the least! This is especially true in view of the
relatively insignificant amount of the judgment - $5,000. The time, effort and money put into this
case and the related cases far exceeds the amount of the judgment. And while I have not advised
Superior of this, there is no way I can charge it for all the work put into this appeal.
. While this case on the outside appears to involve only Ann, Delores is still tied into it by
virtue of the earlier case in which Appellee sued Delores on the same transaction for which Ann
then brought suit against Appellee. The Common Pleas Court and this Court ruled in summary
that, because the same issue involved in these Ann cases was tried and lost by Delores in her case,
Ann’s cases are barred by the doctrine of resjudicata and related legal principles, though Ann was
not a party in the Delores case. Hence, the cases are inextricably tied together.
And why was the case carried as far as it has? Because the Karnofels act pro se and hence
avoid attorney’s fees; they make a hobby of litigating. All one need do is look at the docket entries
for the Karnofels in this Court in this case and several others in Trumbull County; there are literally
2

dozens of Kamofel cases, all pro se. And it is Delores, who is really behind all this, acting as Ann’s
de facto attorney. As this Court well knows, Delores has been deemed a “vexatious litigator”
(pursuant to an order in Trumbull County Court of Common Pleas Case No. 2008 CV 874). I
believe it is part of the Kamofels strategy to make the opposing party spend money on legal fees
so that pursuit against them won’t be worth the while.
The Kamofels even assert they are indigent. No one has put them to the test on this but I
am convinced this is not true. For one, the home in which they live and apparently have for over
60 years, is nearly free and clear except for a line of credit through Citizens Bank and the judgment
lien I have filed in this case. They had enough money to enter the Superior contract and others
which they have litigated (and lost).
As all the courts that have been involved in this case and the related cases have determined,
there is no merit whatsoever to the Kamofels’ contentions. This Court’s fee order relating only to
this appeal barely touches the incredible amount of time and expense incurred in the single merit
issue, but at least it is something. The sanction imposed hopefully will cause the Kamofels to think
more than twice before they again start off on a spurious litigation journey.
I guarantee that the response to this memorandum from Delores - speaking through Ann will be a rehashing of previous spurious arguments advanced by the Kamofels in these cases and
go something like this: this court is prejudiced against Ann (read that as Delores as well) because
she is a woman and pro se; this court is biased in favor of undersigned because my now-deceased
law partner, the Hon. Donald Ford, was a long-term distinguished member of this Court; Appellee
behaved in a fraudulent manner; because and because and because

The point is they will

continue to rehash the merits long ago found in favor of Appellee by all involved courts, and they
will continue to assert procedural irrelevancies.
Maybe

just maybe, if one of them is sanctioned financially, maybe they will quit this

stuff and find some other hobby.
For all these reasons, this Court determined that fees and expenses are due to undersigned
from Ann for her spurious appeal in this case (Case No. 2018-TR-00055), particularly bearing in
mind that Ann had filed a previous unsuccessful appeal in this case under Case No, 2017-TR00026 which, when appealed to The Ohio Supreme Court, was rejected for consideration. Supreme
3

Court Case No. 2018-0908 dated Sep. 12,2018. My failure to respond timely (resulting from the
reasons noted above) should not deter this court from its previous decisions in this regard.
And again, I apologize to the Court for the extra work it has had to expend in this matter.

TURNING TO THE MERITS PER THE MAGISTRATE’S MAY 16 ORDER
The Magistrate’s order directs that I provide pre-hearing evidentiary material supporting
the fees associated with this appeal and address the relevant factors set forth in Rule 1.5 of the
Ohio Rules of Professional Conduct.
My Normal Hourly Rate and Charges to Client:
I cannot in good conscience charge Superior Waterproofing - which really means its sole
owner, Frank Kiepper - for the time and effort put into this appeal. I have represented Superior for
nearly 2G years. My charges to Superior are based on my normal hourly rate at the time services
are rendered. That rate is and has been for a few years $275 per hour. Even though I am not
charging Superior for the appeal in this case - as said earlier, I have never advised Superior that I
do not plan to charge - Ann is nevertheless no less responsible for the fees.
Lest it be asserted that because I have not charged Superior for the legal work, I cannot
include that time in my fee motion. To be clear, as far as my client is concerned, he has never been
told that I am not going to charge for the appellate work; as far as he understands he is legally
obligated to pay my legal fees. In the case of Grove v. Gamma Cntr, 2015-0hio-1180, the 3rd
District, in construing the term “incurred” as used in R.C.2323,51, the statute providing for fee
motions as well as, held that when a party has a legal obligation to pay legal fees or otherwise
becomes legally accountable for them, regardless of whether the fees have been or will be paid,
they have been “incurred” and therefore may be assessed against the defaulting party. See also
Marshall v. Cooper & Elliott, 2017-0hio-4301 (8th Dist,) at Tf31, et seq. (Also pertinent are Civ.
R. 11 and R. App, P. 23.)

4

My Qualifications:
As a lawyer who has been in* practice 53 years and represented many classes of clients from
steel mills and hospitals with thousands of employees to one-man band companies, I have vast
experience in many aspects of law and am well worth $275 per hour or more. If you do a Lexis
search on my name, you will see the extensive appellate experience I have had representing many
varieties of clients in numerous fields of law and usually prevailing. Had I not had to respond to
the spurious claims in this case I easily could have filled in the time with work for clients who
routinely pay my normal hourly rate. Instead, I had to take up my time with this case on which I
can earn nothing except what Ann might be ordered to pay, and then catch up on other lucrative
work in time I would rather have been spending with my family. Whether I will ever receive any
award adjudicated herein is quite speculative.

Potential Expert Witness:
Either Atty. Michael Grove or Atty. Tom Nader will vouch for the reasonability of fees at
the hearing.
Hours Spent on the Appeal:
Frankly, because I made a decision that I would not charge Superior for work on this
appeal, I have not kept the meticulous time records I normally do. So, I am giving an estimate of
the number of hours spent on the actual appeal That time includes: review of the initial appeal .2 of an hour; review of the 17 page brief - about 1 hour; an abbreviated response (abbreviated
because what was raised was nothing new and nothing but a repeat of Case No. 2017-TR-00026)
- about 1 hour; prep for oral argument - about .5 of an hour; attendance at oral argument - about
1.5 hour (which includes travel and waiting time); motion for sanctions - about .5 of an hour; and
this pre hearing memo related to the court’s order for sanctions for attorney s fees and costs — 4.2
hours and that figure is exact inasmuch as I have kept time on that. Total: 8.9 hours X $275 =
$2,337.50.
In addition, the further time that will be spent on prep for and trying of the sanctions issues.

5

W

-•

There are no expenses directly attributable to this appeal other than copying charges and
mail costs which are nominal.
UPDATE
This matter just won’t stop! We see by way of the court docket, that Appellant has
filed a Motion for Reconsideration today. We have yet to receive a copy. This has got to be
brought to an end.
Respectfully submitted,

ton If1

Ned C. Gold, Jr., Esq. (001
'6)
Ford, Gold, Kovoor & Simon, Ltd.
Attorney for Defendant-Appellee
8872 E. Market Street, Warren, OH 44484
Phone: 330.856.6888 Fax: 330.856.7550
Email: Gold@neo-lawgroup.com

CERTIFICATE OF SERVICE
A copy of Appellee’s Response to Court’s June 13, 2019 Entry re: Attorney Fees was sent
via U.S. regular mail on Mav20.2019. to:
Ms. Ann Karnofel
1528 Greenwood Avenue
Girard, Ohio 44420
Pro Se Plaintiff-Appellant
Ned C. Gold, JnTEsq. (00183Q#)
Ford, Gold, Kovoor & Simon, Ltd.
Attorneyfor Defendant-Appellee

6

I
STATE OF OHIO

)

IN THE COURT OF APPEALS

COUNTY OF TRUMBULL

)SS.
)

ELEVENTH DISTRICT

JUDGMENT ENTRY

ANN KARNOFEL,
Plaintiff-Appellant,

CASE NO. 2018-T-0055
- vs SUPERIOR WATERPROOFING,
INC.,
Defendant-Appellee.

In a magistrate’s order dated May 16, 2019, this court ordered counsel for
appellee within fifteen (15) days from that date to “file evidentiary material,
including affidavits and/or other documentary materials, demonstrating reasonable
expenses, costs, and attorney fees, particularly addressing the factors set forth in /
Rule 1.5 of the Ohio Rules of Professional Conduct” and to “identify any expert
witness, who will be called at the evidentiary hearing to corroborate the claim for
attorney fees.”
To date, counsel for appellee has submitted no material to this court.
Therefore, the evidentiary hearing scheduled for Wednesday, June 19,
2019, at 9:30 a.m. is cancelled.
Counsel for appellee has seven (7) days from the date of this entry to show
cause as to why this court should not determine that he is not entitled to any
monetary expenses, including attorney fees and costs, related to the instant appeal
pursuant to App.R. 23.
FILED
COURT OF APPEALS

JUN 1 3 2019
TRUMBULL COUNTY, OH
Af P'E-KlD/ H
KAREN INFANTE ALLEN, CLERK
i

\

tiAjL- \ UjXPd
.5^ )
JUBG^A^rY
S JANETftAPP
i

i

STATE OF OHIO

)

IN THE COURT OF APPEALS

COUNTY OF TRUMBULL

)SS.
)

ELEVENTH DISTRICT

I

JUDGMENT ENTRY

ANN KARNOFEL,
Plaintiff-Appellant,

CASE NO. 2018-T-0055
- vs SUPERIOR WATERPROOFING, INC.,
Defendant-Appellee.

This matter came on for consideration upon the Magistrate’s Decision of
September 18, 2019, and objections filed by appellant, Ann Karnofel.
Under Civ.R.

53(D)(3)(b)(1),

a

party may file written objections to a

magistrate's decision within 14 days of the filing of the decision, whether or not the
court

has

adopted

53(D)(3)(b)(iii) describes

the

decision

certain

during

requirements

that
to

14-day
support

period.
an

objection

Civ.R.
to

a

magistrate's factual findings, stating in pertinent part:
“An objection to a factual finding, whether or not specifically designated as a
finding of fact under Civ.R. 53(D)(3)(a)(ii), shall be supported by a transcript of all the
evidence submitted to the magistrate relevant to that finding or an affidavit of that
evidence if a transcript is not available. * * * The objecting party shall file the
transcript or affidavit with the court within thirty days after filing objections unless the
court extends the time in writing for preparation of the transcript or other good cause.
If a party files timely objections prior to the date on which a transcript is prepared, the
i

party may seek leave of court to supplement the objections.”
i

i

!

ij

!

Ms. Karnofel’s objections were timely filed on September 27, 2019. Appellee,
Superior Waterproofing, Inc., did not file a response to Ms. Kamofei’s objections, and
Ms. Karnofel has not filed a transcript of the proceedings before the magistrate or an

i

affidavit.
The court has undertaken an independent review of the Magistrate’s Decision
as to the objected matters, and the findings of fact contained within the Magistrate's
Decision are approved and incorporated by reference within this judgment entry.
Ms. Kamofel's first, third, and fourth objections relating to the court's denial of
her motion to stay, the court's denial of her motion to continue the evidentiary hearing
before the magistrate, and her objection to the court’s judgment entry ordering appellee
to show cause are overruled as those judgment entries are not a part of the
Magistrate’s Decision. Thus, they are not properly the subject of objections to that
decision.

The court would note that we also overruled appellee’s motion for a

continuance of the evidentiary hearing.
Ms. Kamofel’s second and eighth objections are overruled for the same reason.
Ms. Karnofel is attempting to relitigate this court’s opinion and judgment entry on the
merits of her appeal. The only matter referred to the magistrate was the issue of the
reasonable amount of appellee’s attorney fees and expenses incurred in defense of
the underlying appeal. The only frivolous conduct found by this court in the underlying
appeal was that of Ms. Karnofel.

r
i

Ms. Kamofel's fifth objection regarding Attorney Gold’s hourly rate is also
overruled. The court has accepted the magistrate’s finding that $275 per hour is
reasonable.

No transcript from the evidentiary hearing was filed; thus, without a

2
i

i

!ii
i

i

I
transcript, our review of the magistrate's findings of fact is limited to determining
whether those findings support the magistrate’s conclusions of law. Krlich v. Shelton,
11th Dist. Trumbull No. 2018-T-0104, 2019-Ohio-3441,fl23.
Further, Ms. Karnofel argues the hourly rate should not exceed $125 pursuant
to the “Equal Access to Justice Act,” citing an article in American Jurisprudence 2d.
The act found at Title 28 U.S.C., Chapter 161, Section 2412, applies only in cases
where the United State of America or any of its agencies or officials are parties.
Ms. Karnofel's sixth and seventh objections are overruled because, again, the
court has accepted the magistrate’s findings regarding the testimony of Attorney Grove
as to Attorney Gold’s professional qualifications, the reasonableness of fees as
contemplated in Prof.Cond.R. 1.5(A)(1) through (8), and the hours spent. Again,
without a transcript of the evidentiary hearing our review is limited. Ms. Karnofel's
inability to pay any money judgment is not a valid basis for an objection to the
Magistrate's Decision.
Therefore, this court adopts the Magistrate's Decision overruling all other
pending motions and awarding appellee, Superior Waterproofing, Inc., the sum of
$2,722.50, for which judgment is hereby rendered and execution may issue. Costs
are assessed to appellant.

Htlftnu (knib
jjUD^e Mary jane fF^APP

FILED
COURT OF APPEALS

THOMAS R. WRIGHT, P.J.,
MATT LYNCH, J.,

OCT 2 9 2019

concur.
3

n

TRUMBULL COUNTY, OH
KAREN INFANTE ALLEN, CLERK

!

i

i
STATE OF OHIO
COUNTY OF TRUMBULL

IN THE COURT OF APPEALS

)
) SS.
)

ELEVENTH DISTRICT

ANN KARNOFEL,

MAGISTRATE’S DECISION

Plaintiff-Appellant,
CASE NO. 2018-T-0055
- vs SUPERIOR WATERPROOFING, INC.
Defendant-Appellee.

The assigned panel in the instant action issued a judgment entry on April
15, 2019, finding this appeal to be frivolous and referring the matter to this
Magistrate to conduct an evidentiary hearing to determine the amount of
reasonable expenses to be assessed against appellant, including attorney fees
and costs, incurred by appellee in defense of this appeal. Consistent with that
entry, an evidentiary hearing was held on August 15, 2019.
App.R. 23 provides an appellate court with the authority to order an
appellant to pay the reasonable expenses of appellee, including attorney fees and
costs, where the court determines that an appeal is frivolous. The purpose of
App.R. 23 is to compensate a non-appealing party for expenses incurred in
defending a frivolous appeal and to deter frivolous appeals to preserve the
appellate calendar and limited judicial resources for cases that are truly worthy of
the court’s consideration. Waller v. Menorah Park Center for Senior Living, 5th
Dist. Stark No. 2018CA00083, atfl 26.
!

In this case, Attorney Ned C. Gold, Jr., appeared at the hearing on August
15, 2019, on appellee’s behalf.

Neither appellant, nor counsel on her behalf,

appeared. The Court has considered the evidence and testimony of counsel.
n
H
:

A Ppemv*

N/

i
!
i

When given the opportunity to present evidence in support of appellee’s
position, Attorney Gold referred to his June 20, 2019 submission, which was in
response to this court’s June 13, 2019 entry, regarding the hours he spent on this
matter. He then presented a witness as to the reasonableness of the fees.
As to the hours spent, Attorney Gold’s June 20, 2019 submission, at page
5, estimates, in detail, the hours spent on the appeal at 8.9 hours at $275 per hour.
However, during his opening remarks, Attorney Gold clarified he was reducing
those hours to 7.9 hours. He further explained that he had an additional two hours
in preparing for the evidentiary hearing. Thus, he indicated that he expended 9.9
hours at $275 per hour for a total of $2,722.50 in fees with respect to this appeal.
Attorney Gold presented the testimony of his sole witness, Attorney Michael
E. Grove to attest to the reasonableness of the fees. Attorney Grove testified as
an expert witness as to Attorney Gold’s professional qualifications and as to the
reasonableness of fees as contemplated in Prof.Con.R. 1.5(a)(1) through (8). He
verified that the amount of time spent on this case and the hourly rate of $275
charged were reasonable for this area for an attorney with Attorney Gold’s
appellate advocacy skills and legal experience.
Appellee established that it spent $2,722.50 in attorney fees defending the
appeal. This is, therefore, unrebutted, and appears, on its face, quite reasonable.
Accordingly, the Magistrate
to App.R. 23.

awards appellee its attorney fees, pursuant

Appellant, Ann Karnofel, is ordered to pay appellee, Superior

Waterproofing, Inc., $2,722.50.
Furthermore, all other pending motions are hereby overruled.
IT IS SO ORDERED.
!

ii
ii

2

H
I!

/-•

:

A party may, within fourteen (14) days of the filing of this Magistrate's
Decision, serve and file written objections. If objections are timely served
and filed by any party, any other party may serve and file objections within
ten (10) days of the date on which the first objections were filed, or within
the time otherwise prescribed by Civ.R. 53, whichever period last expires.
Such objections shall be considered a motion. Objections shall be specific
and state with particularity the grounds therefore.
Upon consideration of the objections, the Court may: adopt, reject or
modify the Magistrate's Decision; hear additional evidence; recommit the
matter to the Magistrate with instructions; or hear the matter itself. (See
Civ.R. 53, as amended.)
These and all other provisions of the Ohio Rules of Civil Procedure
must be in compliance or objections may be overruled.
ii
!

Date:
MAGISTRATE SHIBANI SHETH-MASSACCI

TO THE CLERK OF COURTS: You Are Ordered to Serve
Copies of this Magistrate’s Decision on all Counsel of Record
or Upon the Parties who are Unrepresented Forthwith
FILED
qOURT OF APPEALS

by Ordinary Mail.

SEP 1 8 2019
-RUMBULL COUNTY, OH
KARfeN INFANTE ALLEN, CLERK

MAGISTRATE SHIBANI SHETH-MASSACCI
:

!
3
;j

U

i

